                                CLOSEOUT
                                      ,
                                         FOR M98080021

        This case came to OIG on August 8, 1998, when we received a letter and
supporting documents from Dr.
v            (the department) at
alleged that Drs.
                                    F              (the complainant) of the-
                                                        (the university). The complainant
                                  (the first subject), -(the                   second
subject), and other members of the department's faculty had obstructed her research
and retaliated against her for informing OIG and responsible officials at the university
about the subjects' alleged misconduct in science.

        The complainant had made earlier allegations against the subjects. These were
investigated by the university, which found that no misconduct occurred in that case.
OIG, after reviewing the evidence, accepted the university's conclusion.' The
complainant's new allegations concerned the subjects' actions since this earlier case was
resolved.

        The complainant alleged that the first subject deliberately obstructed her
research by failing to give her adequate technician support for her work and that his
action in this regard was misconduct in science. However, the complainant judged this
alleged obstruction to be less serious than previous actions that the university and OIG
had concluded were not misconduct in science, and OIG agreed with her judgment in
this regard. OIG decided that there was no evidence of obstruction of research that was
so serious as to constitute evidence of misconduct in science.

        The complainant cited four instances of alleged retaliation against her for being
a whistleblower. The university's misconduct official, who had not handled the
complainant's previous allegations or been otherwise involved in the case previously,
assessed the retaliation allegations. After interviewing knowledgeable persons in the
department and examining records relevant to these allegations, the official determined
that further fact gathering was not required and that the allegations lacked substance as
allegations of misconduct in science. The four instances of alleged retaliation were:

1. The complainant suggested that the frst subject's persistence in allegedly
obstructive behavior was evidence that the behavior was deliberately obstructive and
retaliatory. The university official concluded that many of the allegedly obstructive
actions could be attributed to administrative problems, including limited resources,

' OIG's decision is explained in the document closing OIG case M96020005.
                                      page 1 of 2
                             CLOSEOUT FOR M98080021

inadequate planning, and poor communication. He concluded that the first subject's
pattern of action was generally inconsistent with the idea that his actions were
motivated by a retaliatory intent. OIG accepted this conclusion.

2. The complainant alleged that an official complaint against her by the second subject
constituted retaliation. OIG examined the complaint. The university official dismissed
this complaint as "not, in itself, an act of scientific misconduct." OIG noted that the
second subject's complaint was precipitated by an altercation that was not specifically
related to the complainant's whistleblowing. The second subject's complaint cited a
history of interpersonal conflict between the second subject and the complainant that
predated the complainant's misconduct allegations and was in significant measure
unrelated to it. We concluded that there was insufficient evidence to tie the second
subject's complaint specifically to the complainant's whistleblowing and that the
allegation that this complaint was retaliation lacked substance.

3. The complainant alleged that a union grievance filed by the subjects and two of their
colleagues in the department, which alleged that the university had failed to protect the
grievants from discriminatory and damaging actions and comments by an unnamed
faculty member, constituted retaliation. The university official noted that "except that
[the complainant] chose to involve herself in the handling of the grievance, the
existence of this grievance placed no restrictions on her behavior or on her research and
did not result in any decrease in technical support for her projects." The grievance,
which was subsequently withdrawn, could not substantively and adversely affect the
complainant unless disinterested persons assessed it to be meritorious. OIG concluded
that the filing of the grievance lacked sufficient direct retaliatory impact on the
complainant to make it misconduct in science within the meaning of NSF's d e f ~ t i o n .

4. The complainant alleged that the department's unjustified decision to deviate from
its hiring plan (by hiring a scientist whose specialization did not complement the
complainant's) adversely affected the complainant and was retaliatory. In her
complaint, the complainant acknowledged that other interpretations of the department's
action were possible. The university official concluded that the record of the
department's decision did not support the interpretation of the decision as retaliatory,
and OIG accepted this conclusion.

        On the basis of OIG's review of the university official's conclusions and the
record in this case, we concluded that the allegations lacked sufficient substance as an
allegation of misconduct in science to warrant pursuing further. This inquiry is closed
and no further action will be taken on this case.




                                  page 2 of 2
